TN

os - (COCKIE

° E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B a contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 19-685

EDWARD GEORGE McGREGOR,
Petitioner,
v.
THE STATE OF TEXAS,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR THE
PETITIONER in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 2692 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 15th day of May, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths,

ove ee. Q.Llaoo Onda bt bile

My Comm. Exp. September 5, 2023
Notary Public

 

Affiant 39812
